                                                                                                 Report No. DoDIG-2012-001
                                                                                                             October 6, 2011




DEPUTY INSPECTOR GENERAL FOR INTELLIGENCE
    AND SPECIAL PROGRAM ASSESSMENTS




Assessment of Security Within the Department of
      Defense - Training, Certification, and
              Professionalization



  This document will not be released (in whole or in part) outside the Department of Defense without the prior
                   written approval of the Inspector General of the Department of Defense.
Additional Information and Copies
For information and to request copies of this report, contact the DoD Office of Inspector
General at (703) 604-8841 or (DSN) 664-8841.

Suggestions for Audits and Evaluations
To suggest ideas for or to request future audits or evaluations, contact the Office of the
Deputy Inspector General for Intelligence and Special Program Assessments at
(703) 604-8800 (DSN 664-8800) or UNCLASSIFIED fax (703) 604-0045. Ideas and
requests can also be mailed to:

                        ODIG-ISPA (ATTN: ISPA Suggestions)
                        Department of Defense Inspector General
                          400 Army Navy Drive (Room 703)
                              Arlington, VA 22202-4704




Acronyms and Abbreviations
ACTEDS                         Army Civilian Training Education and Development
                               System
COCOM                          Combatant Command
DARPA                          Defense Advanced Research Projects Agency
DSS                            Defense Security Service
FCM                            Functional Community Manager
OUSD(I)                        Office of the Under Secretary of Defense for Intelligence
OSD                            Office of the Secretary of Defense
SPēD                           Security Professional Education and Development Program
USD(I)                         Under Secretary of Defense for Intelligence
USSOUTHCOM                     United States Southern Command
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704
                                                                              October 6, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               DEPUTY UNDER SECRETARY OF DEFENSE FOR
                 INTELLIGENCE AND SECURITY


SUBJECT: Assessment of Security Within the Department of Defense - Training,
         Certification, and Professionalization (Report No. DoDIG-2012-001)

We are providing this report for your information and use. This is the second in a series of
reports designed to provide an overall assessment of security policies and procedures within
the Department. We issued a draft of this report on June 6, 2011 . We considered comments
from the Director of Security, Office ofthe Deputy Under Secretary of Defense for
Intelligence and Security in preparing the final report. Management generally concurred
with our recommendations. While management either partially or fully disagreed with two
recommendations, proposed actions and actions taken to date, along with corresponding
details, satisfies the intent of those recommendations. Therefore, we will not require further
comment.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. William Rainey at (703) 604-8873 (DSN 664-8873), william.rainey@dodig.mil, or
Mr. David Ingram at (703) 604-8826 (DSN 664-8826), david.ingram@dodig.mil.

                                        -' '~"            / /".   ')
                   (
                                 ~y:;[_\h£b_.~ l/ ~~t.tU?~-
                                  Patric~~ A. Brannin       ~~
                                   Deputy Inspector General
                                     Intelligence and Special
                                     Program Assessments
Report No. DoDIG-2012-001 (Project No. D2010-DINT01-0066.001)                         October 6, 2011

               Results in Brief: Assessment of Security
               Within the Department of Defense -
               Training and Certification
What We Did                                              completed. Developers of the program have
                                                         provided quarterly program status updates to the
This is the second in a series of reports designed       DoD Security Training Council but program
to provide an overall assessment of security             status regarding implementation plans have not
policies and procedures within the Department.           been effectively disseminated to the security
In this report, we address how the Department            community. As a result there are some doubts
trains, certifies, and establishes professional          across the Department regarding the viability of
standards for security professionals across the          the certification program and whether it will be
DoD security enterprise. We addressed security           implemented in a timely manner.
costs in a previous report. We will focus on the
classification and grading of security personnel
and the policies associated with these security          What We Recommend
issue areas in subsequent reports.                       The Director, Defense Security Service:
                                                         examine the current implementation strategy
What We Found                                            and develop a standardized certification
                                                         program implementation plan for use by all
We found that security training is sporadic and          organizations and commands, including a means
not consistently applied throughout the                  to track those with certifications and the level of
Department. This is due, in part, to the inability       certification; develop an awareness plan to
to ensure that funding for security training is          communicate the status of the security
dedicated and not re-allocated for non-security          certification program across the Department;
efforts. Furthermore, the Security Professional          and address timeliness concerns to ensure the
Education Development (SPēD) Certification               expeditious implementation of certification for
Program is only partially developed at this time         security professionals and a consistent level of
and linkages to identified security job                  protection of DoD resources. The Deputy
requirements and competencies are not well               Under Secretary of Defense for Intelligence and
understood by the DoD security workforce.                Security should develop a mechanism to ensure
                                                         consistent oversight and monitoring of funds
A certification program to assess the                    allocated to support the security certification
proficiencies of individuals in security positions       program to ensure funds are not repurposed for
will ensure they are appropriately placed in             non-security training endeavors.
security positions with competencies that best
serve the security needs of the Department. The
certification program needs to be fielded in a           Management Comments and
timely and consistent manner with support from           our Response
the DoD for the program’s implementation and
sustainment.                                             While comments from the Director of Security
                                                         generally concurred with our recommendations,
The Under Secretary of Defense for Intelligence          they either partially or fully disagreed with two
directed the Defense Security Service to                 recommendations; however, proposed actions
establish a certification program for security           and actions taken to date, along with
professionals with a goal towards the                    corresponding details, satisfies the intent of
professionalization of the security field. The           those recommendations. Therefore, we will not
SPēD Certification Program is in its preliminary         require further comment.
stages and full implementation has not been



                                                     i
Table of Contents

Introduction                                                                       1

      Objectives                                                                  1
      Background                                                                  2

Finding A. DoD Needs to Support the Implementation and Sustainment of a
           Security Certification Program                                          3

Finding B. DoD Needs to Provide a Mechanism for Security Professionalization
           in a Timely Manner Through a Standardized Certification Process        20

Appendices

      A. Scope and Methodology                                                    27
      B. Prior Coverage                                                           28

Management Comments

      Director of Security, Office of the Deputy Under Secretary of Defense for
        Intelligence and Security                                                 29
Introduction
Security spans the Department of Defense and is essential to protecting its resources. For
this reason, the DoD has long sought to create a corps of well trained, competent security
personnel to support protection efforts. Properly applied, a capable security structure can
be effective in the possible deterrence of another Fort Hood or WikiLeaks incident.
Several security reviews and audits have assessed the state of security training and
certification, both within the Federal Government and specific to the DoD, and have
made recommendations to further enhance the professionalization and proficiencies of
the security workforce. The process for training and certifying DoD security
professionals remains fragmentary with no standardization across the security enterprise.

The Under Secretary of Defense for Intelligence (USD(I)) directed the Defense Security
Service (DSS) to establish a training and certification program for security professionals
with a goal towards security professionalization. DSS is in the process of fielding the
SPēD Certification Program, which will provide a path towards security
professionalization through a four level certification program. SPēD is a DoD-wide
security training and certification program that will identify security proficiencies and
accountabilities. When fully implemented, SPēD will provide the DoD security
workforce a path towards professionalization and will establish standardized
competencies across Services and commands. However, the program is in its preliminary
stages and the path toward full implementation has not been completed.

Objectives
This is the second in a series of reports on security within the DoD requested by the
USD(I) to assess the state of security in the Department. The overall assessment
objective is to determine:

          how the Department programs and tracks its security costs and measures the
           return on investment for security expenditures;
          how security professionals are trained, certified, and professionalized;
          how security professionals’ jobs are classified and graded; and
          how effective security policy is in addressing the security needs of the
           Department.

The focus in this report is on security training, certification, and professionalization
issues. Of note, security professionals that fall under the purview of the Office of the
Under Secretary for Intelligence (OUSD(I)) are in the security administration, GS-0080
series career field. Accordingly, references in this report to security personnel will refer
specifically to GS-0080s.




                                              1
Background
The creation of a cadre of security professionals within the government has been an
ongoing effort since the latter half of the 20th century. A study commissioned by the War
Department in 1947 recommended the creation of a National Security University with the
stated goal of educating security practitioners from all agencies tasked with supporting
national security. In 1997, a national defense panel proposed establishing an interagency
workforce of security personnel to occupy positions across government security
organizations. In 2001, the Hart Rudman Commission recommended the formation of a
National Security Service Corps with associated rotational assignments, professional
development, and educational opportunities. More recently, in May 2007, Executive
Order 13434 “National Security Professional Development,” was issued with the intent to
advance the education, training, and experience of security practitioners occupying
security positions throughout executive departments and agencies.

Executive Order 13434, commissions, studies, and panels sought to address security
training and professionalization issues within the national security enterprise. Within the
DoD, a 2006 Defense Personnel Security Research Center1 study “Development and
Application of Skills Standards for Security Practitioners” identified inconsistent levels
of training, work requirements, and responsibilities among security professionals. The
study noted that variances in training and competencies undermined the Department’s
ability to successfully accomplish its security mission.

Steps have been taken to address these concerns. The OUSD(I) has taken the position
that all disciplines under its organizational cognizance will move towards certification of
their respective staff, to include security. The current state of security training within
DoD, however, remains problematic.

Our previous security report2 noted that the DoD needs a comprehensive methodology to
track security costs, more accurately program future years’ security budgets, and examine
the return on investment for security expenditures. The ability to implement a
standardized methodology to track security costs is hindered by the Department’s
inability to “fence” or control security funds which are often drawn from Operations and
Maintenance funds. For this reason, security funds – to include training funds – can be
reallocated at command discretion.




1
  The Defense Personnel Security Research Center seeks to improve the efficiency and effectiveness of the
DoD personnel security system. A component of the Defense Human Resources Activity in the Office of
the Under Secretary of Defense for Personnel and Readiness, the Defense Personnel Security Research
Center receives direction and research priorities from the Office of the Deputy Under Secretary of Defense
for Intelligence and Security.
2
  “Assessment of Security Within the Department of Defense – Tracking and Measuring Security Costs,”
Report No. 10-INTEL-09, August 6, 2010.



                                                    2
Finding A. DoD Needs to Support the
Implementation and Sustainment of a
Security Certification Program
Currently, the DoD lacks a standardized and consistent training program that addresses
the training needs and requirements of security professionals. The Services do not have
consistent mechanisms for the training and education of their security staff. Moreover,
the Combatant Commands often lack resources and are often required to train military
personnel with no previous security background who are assigned on a temporary basis.

The absence of a coordinated security training program across the DoD security
enterprise results in a fragmentary training structure and reflects the absence of an
integrated security framework. The OUSD(I) is addressing this insufficiency through the
implementation of the SPēD Certification Program. However, the OUSD(I) needs to
address concerns regarding the program’s implementation as similar efforts have been
unsuccessful in the past. In addition, the OUSD(I) must address potential funding issues
by ensuring appropriate application of security funds for the implementation and
sustainment of certification and professionalization efforts.

Policies Establishing Standards for the Conduct of
Security Education, Training, and Professional
Development
Executive Order 13434, May 2007, mandated the creation of a framework to enable
security personnel a path towards professionalization through integrated security
education, training, and professional experience. The goal was to enhance the
knowledge, skills, and proficiencies of security professionals and thus enhance overall
national security. In response to this requirement, federal agencies have instituted
professional development programs for security personnel. DoD policies establishing
authorities and implementing policy changes specific to security training are detailed
below.
DoD Directive 5143.01, “Under Secretary of Defense for Intelligence (USD(I)),”
November 23, 2005, established the responsibilities, functions, relationships, and
authorities of the USD(I) to include security. The Directive identifies the USD(I) as the
Principal Staff Assistant and advisor to the Secretary and Deputy Secretary of Defense
for security matters. As such, the USD(I) is required to develop policy and provide
oversight on training, education, and career development of personnel within the Defense
Intelligence enterprise which includes security.

DoD Instruction 3305.13, “DoD Security Training,” December 18, 2007, requires the
USD(I) to exercise policy oversight of personnel in defense intelligence positions of
which security is a component, to ensure that Defense intelligence, counterintelligence,
and security components are manned, trained, equipped, and structured to support the
missions of the Department and fully satisfy the needs of the Combatant Commands
(COCOMs), the Services, and the Office of the Director of National Intelligence, as
appropriate. As a result, in June 2007, the USD(I) established the Human Capital
Management Office to professionalize the DoD intelligence workforce.



                                            3
In furtherance of this effort, the USD(I) created the DoD 3305 series of issuances to
address the training, education, and professional development needs of the DoD
Intelligence Enterprise. The series authorizes DoD functional managers and training
councils to define workforce training standards. The training and professionalization of
security personnel is governed by these issuances. With respect to training, DoD
Instruction 3305.13:

      establishes policy, standards, and procedures and assigns responsibilities for the
       conduct of DoD security education, training, and professional development;
      assigns the Director, DSS, as the functional manager responsible for the execution
       and maintenance of DoD security training;
      establishes and designates the SPēD program as the DoD-level security training
       program; and
      establishes the DoD Security Training Council as an advisory body on DoD
       security training that reports to the Defense Intelligence Training and Education
       Board.

The DoD Security Training Council functions as the training oversight council for DoD
security and serves as the central source for functional training issues. The training
council provides the Security Functional Manager with the means through which
intelligence training issues, policy changes, establishment of standards, allocation of
responsibilities, and other related topics can be addressed and recommendations made to
the USD(I).

DoD Manual 3305.13-M, “Security Accreditation and Certification Manual,”
March 14, 2011, serves as the implementation guide for DoD Instruction 3305.13. DoD
Manual 3305.13-M further defines the roles and responsibilities of the USD(I), DSS, the
DoD Security Training Council, and the Components with respect to security education
and professional development. With regard to resources to ensure sustainment of training
efforts toward the professionalization of the security workforce, the manual states that
the:

      USD(I) will ensure that sustainment requirements of the SPēD Certification
       Program and institutional accreditation are identified and included during the
       program and budget build and during development of supplemental requests.

      USD(I) will review SPēD certification program resource requests upon budget
       submission and provide additional guidance as needed.

      DSS will identify SPēD certification program resource requirements and submit
       for inclusion in the DoD budget.

      Heads of Components will identify SPēD certification program education,
       training, and certification renewal requirements including associated costs for
       time required for professional development and include in planning,
       programming, and budgeting actions.




                                            4
DoD Instruction 3115.11, “DoD Intelligence Human Capital Management
Operations,” January 22, 2009, establishes policy, prescribes procedures, and assigns
responsibilities for the development and execution of the DoD Intelligence Human
Capital Programs, including Security. The Instruction also designates the USD(I) as the
accreditation and certification official for the Defense Intelligence Components
Department-level programs. With respect to implementation, the Instruction assigns the
responsibility of developing human capital policies and guidance for the DoD
intelligence workforce to the Human Capital Management Office within the OUSD(I).
Specific to training, DoD Instruction 3115.11 authorizes the Defense Intelligence
Training and Education Board as the decision-making body for policy coordination and
oversight on Defense Intelligence, workforce development, training, and education
matters in support of the Defense Intelligence Human Resource Board.

The Defense Intelligence Training and Education Board, which includes the Chair of the
DoD Security Training Council, addresses DoD intelligence education and training
matters of Defense Intelligence Components. The board also provides a forum to address
DoD intelligence professional development issues and matters such as policy changes,
establishment of standards, allocation of responsibilities, and other related topics.

Recommendations can then be made to the USD(I) via the Defense Intelligence Human
Resource Board. Defense Intelligence Training and Education Board meetings occur at
least bi-monthly or as determined by members. In addition, participation in meetings is
extended to non-Defense Intelligence Components (e.g., National Intelligence University,
American Council on Education, and the Council on Occupational Education) as
associate members to allow full access to DoD intelligence education and training, as
appropriate.

Survey Findings Regarding Security Training
We solicited input from Security Managers via surveys in an attempt to ascertain the state
of security training and certification across organizations, Services and commands.
Respondents were provided with a password to access the survey online. The survey was
sent to 48 Security Managers throughout the DoD and addressed funding, certification
and training, classification and grading, and policy issues related to security. As the
security managers of their respective organizations, respondents were able to provide
knowledgeable responses which in turn inform this report. We received a response rate
of 35%, which is consistent with voluntary response rates.
Specific to training, survey respondents noted that security training was primarily
received on-line, on-the-job, or via on-site training. Nearly two thirds of respondents felt
security training prepared security professionals for security responsibilities. The
dissatisfaction of one third of respondents indicated the lack of uniformity in available
programs and inconsistent access to security training across the DoD security enterprise.

Survey responses identified that re-allocation of funds occurs more frequently with
training funds as security training is often a low priority at DoD commands; and unfenced
funds can be easily shifted to meet command exigencies. As a result, security training
occurs primarily on-the-job or is very limited.




                                             5
While survey respondents provided somewhat consistent feedback regarding the state of
security training, there were a few exceptions. One survey response is detailed below to
highlight the complexity of the security mission across the DoD security enterprise and to
underscore that a “one size fits all” approach may not meet all DoD organizational
security needs.

Highlight – The Defense Advanced Research Projects Agency (DARPA). DARPA is
the research and development organization for the Department. DARPA’s mission is to
maintain the technological superiority of the U.S. military and prevent technological
surprise from harming national security. To that end, DARPA funds unique and
innovative research through the private sector, academic, and other non-profit
organizations as well as government laboratories. DARPA’s research runs the gamut
from conducting scientific investigations in a laboratory to building full-scale prototypes
of military systems.

DARPA utilizes contract and civilian security professionals in support of their complex
mission. According to DARPA, the requirements for their contract security professionals
are far above the standards set for ordinary security officers. Moreover, unlike some
commands, all of DARPA’s security personnel perform security as a primary rather than
collateral duty. DARPA has no assigned military personnel in support of security. Their
security team has an average of over 24 years of security experience and both contract
and civilian security personnel have at least a bachelor’s degree.

DARPA’s main concern does not lie with the proficiencies of their security professionals
but rather with the level of training and proficiencies of other DoD security organizations
tasked to provide oversight of DARPA activities. Security managers noted that outside
organizations often do not have the training to understand the environments they are
required to oversee. Thus, an unintended consequence of delegating authorities to an
outside agency is the questionable value of assessments that an outside organization is
able to provide. Moreover, outside components cannot make informed risk management
decisions about programs with which they do not interact on a regular basis. As a result,
the inability to understand the complexity of programs can also affect cost.

When outside organizations are tasked to enforce security requirements, they do so with
no understanding of the impact on cost, schedule, and performance – factors that can
impede the delivery of the product. If inspecting organizations understood the nuances of
projects, they could provide DARPA with the leeway to apply risk management
principles resulting in significant cost savings for the DoD.

As the research and development organization for the DoD, DARPA is an organization
that faces unique security requirements. By leveraging the capabilities of a highly trained
caliber of security professionals, DARPA has been able to adequately meet their
organization’s security needs. This heightened level of proficiency is an effective model
for an advanced research organization where security lapses could have national level
implications.




                                             6
Military Department Security Training Efforts
Information obtained via interviews with security officials confirmed the need for
standardized, requisite, and consistent security training across the Services for both
military and civilian personnel. Army security officials said during interviews that with
the exception of their security intern program, there is no consistent approach to security
training. Navy security officials are in the process of refreshing competencies for the
GS-0080 security workforce through an executive committee that is addressing
professional development. Marine Corps security officials have a career roadmap for
their GS-0080 security professionals, but there is no requirement to take the specified
training. Air Force security officials have taken steps to achieve their goal of improving
security training and are employing an enterprise approach to security issues to include
the integration of risk management principles.

Army Security Training Efforts
The state of security training in the Army is inconsistent. One of the main causes is the
manner in which training funds are allocated. Once security monies are provided to
commands, Army headquarters loses control over how the funds are spent. While this
situation is not unique to the Army, Army security officials also stated that the
reapportioning of funds has had an adverse impact on security training. Training funds
are not fenced and can be repurposed at command discretion to address other command
priorities. Without consistent funding, security training occurs primarily on-the-job or is
very limited.

Another concern is the level of preparedness of military personnel who are required to fill
security slots. There are no regulations mandating training for military personnel
performing security as an assigned duty. For example, a military person can be assigned
to a post as a special security officer without receiving any specialized training. As a
result, military personnel are often ill prepared to fulfill security requirements.

With respect to Army civilian security professionals, the Army distinguishes between two
groups: security personnel who support intelligence programs and security personnel
engaged in physical security and law enforcement. The two groups fall under career
programs 35 and 19, respectively. The Army noted that where training does exist, it is
available primarily for individuals who are in career program 19, physical security and
law enforcement.

The Army has the Army Civilian Training Education and Development System
(ACTEDS) that provides security professionals with guidance for career planning and
development. Career program 19 has four levels of professionalization (entry/intern,
specialist, intermediate, and management) with associated knowledge, skills, and
abilities. The program provides a career path, identifies the professional characteristics
for physical security and law enforcement and establishes a master training plan. Army
security officials stated that career program 35 does not currently have the formalized
training structure that career program 19 has. However, career program 35 is in the
process of being tied to SPēD.

Moreover, information gleaned from interviews, indicates that ACTEDS is somewhat
dated. Army headquarters personnel said that the Army had previously considered
updating ACTEDS information for security personnel, but determined that it would be
counterproductive to update ACTEDS without first aligning the course information with
SPēD. Once SPēD is implemented by the DSS, the Army will fully integrate SPēD
course information into ACTEDS.


                                             7
The Army is currently collaborating with the DSS on the SPēD program through the
development of implementation protocols. Through their presence on the DoD Security
Training Council and with the assistance of Army subject matter experts, the Army is
also providing input into the skills standards review – a critical component of the SPēD
program design.

SPēD will address funding issues because a significant portion of security training can
occur on-line at no additional cost to Service organizations. However, Army security
professionals expressed some concerns regarding the completeness of SPēD, the
transparency of the implementation process, and whether the program would be fielded in
a timely manner.

The Army does not have a military occupational specialty or an additional skills identifier
for security personnel. Accordingly, the task to ensure that military members are
appropriately credited for any SPēD training and or certification that they might receive
could be problematic. This concern is consistent with a 2008 report3 that detailed the
decision to exempt the Foreign Service, the Intelligence Community, and the DoD from
certain National Security Professional Development requirements. Per the Congressional
Research Service report, some officials reportedly feared that full participation in the
National Security Professional Development program might impinge on time and
resources available to meet their existing career development requirements.

Army representatives expressed similar concerns noting that the Army Training and
Doctrine Command might not accept the mandatory SPēD training and certification if
there is not a mechanism in place to appropriately credit military members for their
security training and ensure that the training is career-enhancing. In the absence of an
additional skill identifier or a military occupational specialty for security, it will be
difficult to ensure that security training will provide career benefits to Army service
members. Despite expressed concerns, the Army is invested in the implementation of
SPēD to address their current security training and certification needs.

Navy Security Training Efforts
The Navy is in the process of updating the career professional development standards for
their civilian security workforce. The existing development standard identifies
prerequisites, job assignments, training, responsibilities, and competencies at the entry,
journeyman, expert, and senior executive service level. The Navy security manager
tasked with career development noted that standards would be harmonized with DoD
standards as established in the SPēD certification program.

The Navy is satisfied with the security training provided by the DSS noting that a
majority of courses are available on-line at no cost to the organization. The only issue in
connection with available on-line training is ensuring that commands allow their security
workforce adequate time to take the training. With respect to the SPēD program, the
security manager noted that legacy security personnel would retain their existing
positions but would be required to have SPēD certification for advancement
opportunities. In the absence of further certification, legacy personnel might have their
billets recoded to accurately reflect their job requirements.


3
 Congressional Research Service Report, “Building an Interagency Cadre of National Security
Professionals: Proposals, Recent Experience, and Issues for Congress,” July 8, 2008.



                                                  8
The Navy security manager also noted that SPēD testing would assist in identifying
competencies across the organization which would allow them to identify positions or
individuals that were misclassified. Of note, the security manager expressed satisfaction
with the performance of Navy security personnel who participated in SPēD beta testing,
citing the high percentage of participants who successfully mastered the first level of
certification. In all, the Navy security manager feels that the SPēD program is on track
and looks forward to the program’s full implementation.

Marine Corps Security Training Efforts
The Marine Corps has unique challenges with respect to security training as they are
subject to both Navy and Office of the Secretary of Defense (OSD) policies as well as
internal Marine Corps regulations. Nevertheless, the Marine Corps applies an enterprise
approach to security ensuring that security standards are applied across the board and
throughout the organization. Moreover, the Marine Corps has established career
development plans for their anti-terrorism; chemical, biological, radiological, and
nuclear; information; personnel; and physical security workforce. The career
development plans identify competencies at the apprentice, journeyman, and expert levels
with associated target grades. In addition, desired certifications and credentials are
specified for each proficiency level. The plans list training opportunities for each skill
level along with identified institutions that offer the associated courses. There is no
requirement that Marine Corps security professionals take the identified courses;
however, it is recommended. The Marine Corps security managers feel that SPēD makes
sense and will ensure that their security professionals have comparable skills that will be
transferrable across the Department. They expressed concern that there is no physical
security component with the exception of handling classified material. However, they
stressed that the Marine Corps and the military as a whole desperately need certification
programs for their security professionals.

Air Force Security Training Efforts
The Air Force is employing an enterprise approach to security matters to include the
training of security professionals. In 2006, the Air Force made the decision to transform
the manner in which information was protected. This transformation decision resulted in
the creation of an Information Protection Directorate, which was established in 2007.
The directorate serves as the single reporting entity on matters related to information
protection and reports directly to the Administrative Assistant to the Secretary of the Air
Force, the Air Force's senior security official. As a result of ongoing transformations, the
directorate is progressing in the finalization of a training and certification program for Air
Force security personnel.

The creation of the training and certification program reflects an understanding on the
part of the Air Force that modern-day security professionals need to have a greater depth
of knowledge and the technical matching skill sets to address the demands of security in
the information age. According to Air Force leadership, an effective security
professional needs to be a knowledgeable advisor with an understanding of how to
manage information protection. He or she has to know all aspects of security to
understand how security disciplines are integrated. Moreover, Air Force security
personnel will need to recognize the importance of integrating corresponding disciplines
such as counterintelligence, law enforcement, and biometrics into a comprehensive
security framework. The Air Force assesses that as a result of automation and increased
proficiencies, fewer people will be needed to perform required security tasks; thus
improved competencies will result in increased efficiencies.


                                              9
The Air Force training and certification program is slated to be fully implemented in
2011 and integrates the SPēD program implemented by the DSS. Similar to SPēD, the
Air Force program has a four level certification structure designed to gauge the
proficiencies of security professionals at entry, mid-career, and leadership levels.
Training will consist of DoD Security Training Council-approved curricula. However,
the Air Force is also seeking to create an undergraduate program for security
professionals in which risk management principles will be incorporated throughout the
curriculum. This program will be conducted through the Advanced Technical
Intelligence Center for Human Capital Development4 with the intent that an
undergraduate degree will serve as a basis for Level-III certification. Notwithstanding
the status of the SPēD program, Air Force security leadership indicated that they are
prepared to move forward with their security training and certification plans.

Combatant Command Security Training Efforts
The COCOMs are joint service commands composed of two or more armed services.
Each one of the COCOMs has a broad continuing mission under a single commander at
the four-star level or equivalent. Given their joint structure and expansive mission, the
COCOMs face unique security challenges.

With respect to security training, we found that the security professionals at the
COCOMs primarily receive their security training through on-line courses, on-the-job
training, or tailored short-term security courses available on installations. The ability of
the COCOMs to send security professionals to offsite training is considerably restricted
by the reality of insufficient security training funds – a factor that was consistently cited
in survey responses and interviews. In addition, security managers stressed the
importance of educating leadership regarding the value of the security mission. Without
leadership support, security needs – especially training – are often unmet. The COCOMs
anticipate the fielding of SPēD and believe it will assist in improving the proficiencies of
security personnel. However, there were concerns that the program would not work as
advertised or that it would never be fully implemented, primarily because similar
programs have been attempted in the past. In addition, there was some concern that
SPēD would be implemented with no consideration for how the program would be
resourced and managed at the local level.

While most security managers knew about the SPēD program, some noted that they had
only heard about it either via e-mails from their peers or through a one-time mailing.
Additional outreach to the COCOMs would likely allay some of the concerns and better
prepare security managers to administer the SPēD program at the local level. For
example, providing information on the implementation DoD Manual 3305.13 could
alleviate concerns about funding. The manual addresses the funding concerns by
requiring the USD(I) to “ensure that sustainment requirements of the SPēD Certification
Program and institutional accreditation… are identified and included in Planning,
Programming, and Budgeting (PP&B) actions.”




4
  The Advanced Technical Intelligence Center for Human Capital Development is a university and
industry-focused research, education, and training nonprofit corporation in the Dayton, Ohio region
consolidating technical intelligence education and training available in the DoD, national agencies, and
civilian institutes and industry.



                                                    10
Half of Command security managers who were interviewed or responded to surveys did
not feel that existing training adequately prepared security professionals to do their jobs
successfully. Personnel performing security as a collateral duty were dissatisfied with the
on-line training provided by the Center for Development of Security Excellence
(formerly the DSS Academy).

Moreover, because assigned security duties were not a primary responsibility, collateral
security professionals could not devote the time needed to become proficient in security
matters. Training was also characterized as basic. As a result, security training did not
address the range and complexities of security requirements. There was also a concern
regarding the absence of an education requirement for security personnel to include the
absence of required ongoing security training.

Where Command security managers were satisfied with security training, the security
personnel were either full time civilians, the mission was functional rather than regional,
or the Command was better resourced. Nevertheless, even amongst satisfied respondents,
there was a desire for SPēD to be fielded, with the expectation that individuals would
arrive with the necessary training to do requisite security tasks beginning with their first
day on the job.

Command security managers provided detailed and comprehensive descriptions of the
security training environment at their respective installations. One response is detailed
below to afford readers an understanding of some of the security challenges experienced
at the Command level.

Highlight – United States Southern Command (USSOUTHCOM). Under the
leadership of a four-star commander, the USSOUTHCOM staff is organized into
directorates, component commands, and military groups that represent USSOUTHCOM
in the regions of Central America, South America, and the Caribbean. USSOUTHCOM
is a joint command composed of military and civilian personnel representing the Army,
Navy, Air Force, Marine Corps, Coast Guard, and several other federal agencies. It is
responsible for providing contingency planning, operations, and security cooperation for
Central and South America, the Caribbean (except U.S. commonwealths, territories, and
possessions), and Cuba; as well as for the force protection of U.S. military resources at
these locations. USSOUTHCOM is also responsible for ensuring the defense of the
Panama Canal and canal area.

The USSOUTHCOM security staff is responsible for personnel, industrial, information,
physical, and sensitive compartmented information security, as well as freedom of
information act actions. Additional duties include visitor reception, badging, media
destruction, foreign visits, plans, exercises, mandatory declassification, security reviews,
pre-publication reviews, biometrics, technical security, technical security
countermeasures, special access program control, special programs, Top Secret control,
security investigations support, security services, and inspections. The Security Manager
has over 30 years in the security field.




                                             11
The Security Manager supervises seven civilian personnel with over 20 years average
security experience and 13 military personnel in temporary slots who oftentimes do not
have a security background. The staff provides security support to approximately 2,000
Command personnel. With respect to security training, the security manager noted that
training either occurs on-line through the Center for Development of Security Excellence,
via on-the-job training, “just in time,”5 or through onsite ad hoc training.

The available training, however, does not prepare security professionals for the
complexities of the USSOUTHCOM security mission. This is especially true for military
personnel who are assigned on a temporary basis. Civilian security professionals, by
comparison, bring an established skill set and, due to longevity, are able to successfully
accomplish security tasks. Per the Security Manager, it takes 18 months to adequately
train military personnel who come on board to fill security slots. This represents a very
steep learning curve. Moreover, after 18 months, the assigned military personnel usually
rotate into intelligence slots. For this reason, the Security Manager advocated that
security should be performed exclusively by civilian personnel. In the absence of a
dedicated civilian workforce, the Security Manager would prefer military personnel with
a security military occupational specialty or at the very least an additional skill identifier
in the security field.

The USSOUTHCOM Security Manager expressed a frustration that also was articulated
by several other COCOM Security Managers concerning the manner in which security is
funded. While not directly a training concern, funding directly affects the ability to give
needed security training. Security programs have to compete for Operations and
Maintenance funds against programs with greater visibility and security is often the loser
in the competition for available funds. The Security Manager said security and other
support mechanisms are often the first programs identified for funding cuts. If leadership
does not support security requirements, security funds are often reallocated to other
programs and security requirements, including training, go lacking. For this reason,
USSOUTHCOM’s Security Manager also supported improved security awareness
training for leadership to assist leaders in understanding the importance of the security
mission.

The Office of the Under Secretary of Defense for
Intelligence – Efforts to Improve Security Training
The OUSD(I) has been working independently and in coordination with other DoD
Components to facilitate the professionalization of DoD security personnel. Pursuant to
Section 1122 of Public Law 109-163, “National Defense Authorization Act” for Fiscal
Year 2006, January 6, 2006, the DoD issued DoD Instruction 1400.25, “DoD Civilian
Personnel Management System: Volume 250, Civilian Strategic Human Capital Planning
(SHCP),” November 18, 2008. The instruction established Functional Community
Managers (FCMs) to address competency and knowledge issues for all DoD civilian
personnel to include security professionals.




5
  “Just in time” is training rolled-out immediately prior to its usage. The advantage to implementing Just in
time training is the shortened time between learning and the application of the information learned.




                                                     12
In June 2007, the USD(I) established the Human Capital Management Office to
professionalize the DoD intelligence workforce. Moreover, the OUSD(I) is directing the
DSS to establish a training, education, and certification program for security personnel.
The SPēD program is partially complete, and complete roll-out of the program is not
scheduled to be completed until 2014.

Functional Community Managers. DoD Instruction 1400.25 Volume 250 established
OSD FCMs as senior functional leaders responsible for working with the DoD
Components to monitor and track policy implementation. The OSD FCMs manage
mission critical occupations with oversight from the Office of Personnel Management.
There are nine mission-critical occupational areas which exist across several agencies
while three occupational areas are sector-specific to national security agencies and the
Veteran’s Administration, the Department of Health and Human Services, and the DoD.
The specific areas include intelligence and law enforcement of which security is a
component. The OSD FCMs work in coordination with Component FCMs to implement
and monitor workforce planning.

The OSD FCM for security is undertaking a comprehensive security review to develop,
implement, and monitor workforce planning for the DoD security field. In furtherance of
this effort, the OSD FCM for security is assessing “functional training and other
strategies to ensure closure of identified competency gaps.”6 The OSD FCM for security
fulfills this requirement in coordination with Component FCMs for security who identify
constraints that impact the ability to meet end strength targets, the status of competency
development, and human capital initiatives.

This information will assist in defining and validating the competencies of DoD security
professionals. Component FCMs for security are expected to work in coordination with
key stakeholders at the component level (e.g., human resource representatives) to assist
the OSD FCM for security in determining their unique security requirements. With
timely and accurate information from Component FCMs for security, the OSD FCM for
security will be able to more accurately develop, implement, and monitor workforce
planning for the DoD Security field. This coordinated approach should provide a better
understanding of the DoD security landscape, assist in determining training requirements,
and improve proficiencies across the Services and commands.

Human Capital Management Office. The Human Capital Management Office was
established within the OUSD(I) to provide oversight, policy, and guidance for all DoD
intelligence civilian and military (active and reserve) positions. The office is also the
proponent for DoD training manual 3305.13-M and is tasked to develop, implement, and
exercise policy oversight of the Defense Civilian Intelligence Personnel System and
manage all Defense Intelligence training and education, and professional development. The
Deputy Director of the office is also the DoD Intelligence Chief Learning Officer and the
Chairman of the Defense Intelligence Training and Education Board.




6
 Memorandum “Functional Community Manager Designations,” December 19, 2008, David S. C. Chu,
Under Secretary of Defense for Personnel and Readiness.



                                              13
The Deputy Director has worked to institute accreditation and certification procedures for
the approximately eleven disciplines7 that reside under the cognizance of the USD(I),
including security. Training will be made available under the aegis of the Advanced
Global Intelligence Learning Environment which will work as a clearinghouse for access
to intelligence training across the various disciplines. The DSS Center for Development
of Security Excellence training catalog is available via the Advanced Global Intelligence
Learning Environment and points users to the Center for Development of Security
Excellence Security Training, Education and Professionalization Portal, to include
courses supporting the SPēD Certification Program.

Specific to security, the Deputy Director is working in coordination with the DoD
Security Training Council to track the accreditation and certification process of SPēD.
Per the Deputy Director, the COCOMs were identified as having the least training
capability. Thus, the implementation of accessible structured on-line training courses
will provide great benefit to security practitioners in the field. Moreover, once
implemented and approved, credits from security courses will be applicable towards an
academic degree.

To make the courses applicable towards a degree, DSS, is working to receive college
equivalency recommendations for Center for Development of Security Excellence
courses through the American Council on Education (ACE). Later, when the security
education curriculum has been sufficiently developed, DSS will apply for accreditation
through the Middle States Commission on Higher Education for degree granting
eligibility. The Security Training, Education and Professionalization Portal will also feed
certification information into the Defense Manpower Data Center to ensure transfer of
certification credentials into official personnel records.

Defense Security Service Administration of Training. The DSS is a Defense agency
under the authority, direction, and control of the USD(I) that provides security support to
Defense agencies, the Services, 23 non-DoD federal agencies, and approximately 13,000
cleared contractor facilities. The organization’s core missions are the National Industrial
Security Program, and the Security Education Training and Awareness Program. The
Security Education Training and Awareness Program oversees the Center for
Development of Security Excellence, which provides security education and training to
DoD security professionals through formal classroom, computer-based and web-based
mechanisms.

The Security Education, Training and Awareness Directorate accomplishes its security
education, training and professionalization missions through the Center for Development
of Security Excellence and the DSS Academy. The Center for Development of Security
Excellence is comprised of five divisions,8 one of which is the Professionalization
Division that is tasked with implementing the SPēD Certification Program.




7
  The disciplines include security, counterintelligence, cryptologic, foreign language, general intelligence,
geospatial intelligence, human intelligence, joint intelligence, measurement and signature intelligence,
leadership, and professional development.
8
  The five divisions are Education, Training, Security Professionalization, Multi-Media Production, and
Research, Analysis and Innovation.



                                                      14
SPēD is a four level security certification program that is predicated on established skill
standards and job competency requirements that were developed for DoD and approved
by the DoD Security Training Council. The SPēD program identifies 11 accountabilities
for security practitioners.9

In addition, the program identifies 16 security competencies with associated knowledge
categories.10 These requirements will be supported by curriculum that will provide
security practitioners with the requisite training to become proficient in their areas of
expertise and ensure that security personnel have the competencies to fulfill the identified
security accountabilities.

       Certification                           Scope                                Status
Security Fundamentals                Fundamentals, Principles,            Operational
Professional Certification           Methods, and Tools
Security Asset Protection            Application of Principles,           Beta Testing
Professional Certification           Methods, and Tools                   August-November 2011;
                                                                          Operational 2nd Quarter FY
                                                                          2012
Security Program                     Risk Management and                  In Development;
Integration Professional             Program Management                   Operational 2nd Quarter FY
Certification                                                             2013
Security Enterprise                  Enterprise Security Leaders          In Development;
Professional Certification                                                Operational 2nd Quarter FY
                                                                          2014

In addition to the core SPēD Certification Program, three certification specialty areas are
being integrated into the SPēD Certification Program. The specialty areas provide
certification in special disciplinary or topic areas within the DoD security community.
The specialty certifications are: DoD Personnel Security Adjudications, Special Access
Programs, and DSS Industrial Security Oversight.

The specifics of the certification aspects of the SPēD program will be discussed in greater
detail in Finding B.

With respect to training, security courses supporting preparation for the Security
Fundamentals Professional Certification are currently available via on-line distance
learning. Security courses supporting preparation for the Security Asset Protection
Professional Certification will be available through classroom instruction as well as
on-line, as a distance learning option.




9
  The 11 accountabilities are assess risks; manage risks; execute security awareness training and education;
counsel stakeholders on security related concerns, issues, and challenges; evaluate program effectiveness;
analyze duties to protect assets which require protection; manage resources; respond to security incidents;
support execution of the classification decision process; support execution of the security clearance
process; and generate security plans.
10
   The 16 competencies are classification management; communications security; continuity of operations
planning; counterintelligence; incident response; information assurance/cyber-security; information
security; law enforcement; operations security; personnel security; physical security; program security;
security education and training; security program management; security tools and methods; and
vulnerabilities assessment and management.



                                                    15
Courses supporting the Security Program Integration Professional Certification and the
Security Enterprise Professional Certification will be identified or developed as required
to support certification preparation. The courses will incorporate existing curriculum
offered by federal agencies that currently provide security training validated as meeting
DoD Security Skills Standards. To ensure courses are available to security professionals,
DSS has a website, registrar, and learning management systems to schedule and support
SPēD.

An on-line diagnostic test for the Security Fundamentals Professional Certification is
available to assist security professionals in identifying knowledge gaps aiding them in
their preparation to certification testing. The diagnostic test evaluates knowledge area
weaknesses and identifies courses that will assist in developing the proficiencies needed
to achieve certification at the first level. A similar diagnostic test will be formulated for
the second level of certification when it is implemented.

DSS estimates that the development of a web-based course costs approximately $165,000
to $250,000 depending on the complexity of the course. While web-based delivery will
provide training at a savings for outside organizations, cost is not the overarching
determinant for how training is delivered. The decision for the delivery method (e.g., on-
line, classroom or blended) is primarily guided by how well the method achieves course
objectives. This determination is made during the analysis phase of course structuring
which establishes who and what must be trained, and when and where training will occur.

The design phase provides the blueprint for the training program while the development
phase builds on learning objectives. The course is then implemented providing a basis
for ongoing evaluation of course efficacies against established standards and criteria.
The ability to provide web-based instruction ensures that DSS training is available to the
widest audience possible in a cost effective manner. The delivery method, however, will
consistently be based on circumstances pertaining to size of student base, locations of
individuals in a targeted training population, and the complexity of the task being trained.
Additionally, DSS hosts community curriculum reviews on an annual basis where
representatives from the Services, USD(I), and the 4th Estate11 participate in the review of
current Center for Development of Security Excellence curricula and identify future
course development requirements thereby ensuring curriculum relevancy.

The SPēD Certification Program will assist in the professionalization of the security
workforce. SPēD is slated to be implemented over a four year period with a new
certification level introduced each year. The 4-year period addresses numerous
considerations:

      ensures the Components can implement the program as it rolls out;
      ensures the program is effectively developed to meet established accreditation
        criteria and sound program design; and
      facilitates the time necessary to develop the supporting training and education.




11
 DoD 4th Estate includes the Office of the Secretary of Defense, the Office of the Chairman of the Joint
Chiefs of Staff and the Joint Staff, the Office of the Inspector General of the Department of Defense, the
Defense Agencies, the DoD Field Activities, and all other organizational entities in the Department of
Defense that are not in the Military Departments or the Combatant Commands.



                                                     16
According to DSS staff, the development of the current SPēD Certification Program
began in April 2009 as a DoD security community effort, shortly after the issuance of
DoD Instruction 330.13. The development of SPēD has been the primary focus of the
DoD Security Training Council and has involved representatives from the Military
Departments and the 4th Estate. Prior to this effort, there was an earlier training and
certification program effort that was under development from 2005-2007. That particular
effort was also called SPēD. It unfortunately lacked the implementing guidance and
funding to succeed. The name SPēD was retained for the current program based on the
naming convention called out in DoD Instruction 3305.13. The current SPēD
Certification Program is a new effort based upon updated skill standards, competencies,
and expanded community involvement in the design and development of the program.

There are concerns expressed by interviewees and respondents, however, about whether
the program will ever be implemented. Moreover, the concerns expressed regarding the
implementation of SPēD are not unfounded. Our review indicates that there have been
previous efforts to field a structured security training and professionalization program.
Some interviewees noted that similar efforts have been ongoing for at least eight years,
perhaps longer, with no concrete results.

It appears, however, that elements within the Department are waiting on the
implementation of SPēD to address their security training and certification needs. For
this reason, outreach to Department organizations needs to be consistent and ongoing to
effectively communicate the status of a program that is both sought after and needed.
The DSS has noted that they are increasing their staff to improve outreach to DoD
Components. This will be necessary to allay concerns about SPēD implementation.

Conclusion
Security training within the Department is not coordinated and occurs primarily on-the-
job or is very limited, resulting in differing levels of proficiencies across the DoD
security enterprise. Accordingly, DoD organizations are anticipating the structure that a
security certification program will provide. With the implementation of SPēD and the
attendant diagnostic exams, security professionals will be able to identify training areas
in which they are deficient and increase their competencies within the security field.
There remains concern however, about whether SPēD will be implemented, as similar
efforts have not borne results in the past. To address this concern, greater outreach will
be required to Defense organizations, and the Combatant Commands.
A separate concern involves the manner in which security is funded. Security funds are
primarily drawn from Operations and Maintenance funds and as such can be reallocated
at command discretion. Our interviews and survey responses found that this reallocation
occurs more frequently with training funds. DoD Manual 3305.13-M “Security
Accreditation and Certification Manual,” March 14, 2011, directs the USD(I) to ensure
that sustainment requirements of the SPēD Certification Program and institutional
accreditation are identified and included during the program and budget build and during
development of supplemental requests. To accomplish this, the USD(I) will review
resource requests and provide additional guidance as needed. These provisions can
ensure that funding for the SPēD certification program will be available. However, in the
absence of a dedicated funding line, an oversight mechanism will be required to track
security funds necessary to ensure the availability of adequate resources for the
professionalization of security personnel.




                                            17
Recommendation, Management Comments, and Our
Response
A1. We recommend that the Director, Defense Security Service develop an
awareness plan that will inform Services and Components of the implementation
status of SPēD and educate security managers about the benefits of the program -
identifying program milestones and addressing concerns regarding program
implementation.

Management Comments
On behalf of the Director, Defense Security Service, the Director of Security, Office of
the Deputy Under Secretary of Defense for Intelligence and Security, concurred, stating
that the Defense Security Service is actively marketing the SPeD Certification Program
and provided a list of new initiatives along with corresponding dates designed to promote
the program and provide status updates on the program to the DoD Community. The
Defense Security Service will continue with these current outreach activities and will
work closely with the Defense Intelligence Agency to address Combatant Command
concerns.

Our Response
The comments of the Director of Security, Office of the Deputy Under Secretary of
Defense for Intelligence and Security, are responsive and meet the intent of the
recommendation. The efforts articulated in the response are commendable, especially the
inclusion of eight initiatives to improve outreach since the publishing of the draft report
on June 6, 2011.

Recommendation, Management Comments, and Our
Response
A2. We recommend that the Deputy Under Secretary of Defense for Intelligence
and Security develop a mechanism to provide consistent oversight and monitoring
of security funds that are allocated to support the implementation and sustainment
of the SPēD certification program and ensure funds are not repurposed for non-
security training efforts.

Management Comments
The Director of Security, Office of the Deputy Under Secretary of Defense for
Intelligence and Security, partially concurred, stating that attempts to develop a
mechanism to provide consistent oversight and monitoring of security funds that are
allocated to support the implementation and sustainment of the SPēD certification
program and ensure funds are not repurposed for non-security training efforts have been
resisted by some components citing abrogation of authorities. However, the Director of
Security further stated that the Office of the Under Secretary of Defense for Intelligence
will explore, with the Office of the Under Secretary of Defense for Personnel and
Readiness and the DoD Comptroller, options for implementation of an oversight and
monitoring plan, and forward the plan to the Deputy Under Secretary of Defense for
Intelligence and Security, in January 2012.




                                            18
Our Response
The comments of the Director of Security, Office of the Deputy Under Secretary of
Defense for Intelligence and Security, are responsive and meet the intent of the
recommendation.




                                          19
Finding B. DoD Needs to Provide a
Mechanism for Security Professionalization
in a Timely Manner Through a Standardized
Certification Process
Certification for DoD security professionals within the GS-0080 series is in the early
preliminary stages. Responses to our survey and interviews indicate that the DoD
security community is not familiar with the SPēD Certification Program and the
certification requirements for DoD security personnel. An earlier assessment of the
security field noted that security has few entry barriers or professionalization criteria.12
While progress is being made, without the success of SPēD, the credibility of the security
profession could be adversely impacted.

The Air Force is alone in proceeding with a training and professionalization program that
is closely aligned with the planned SPēD Certification Program. In addition, under
SPēD, DoD activities will align planned certification standards with existing position
descriptions. These undertakings will assist in the professionalization of security
personnel. The efforts, however, need to be implemented in a timely and consistent
manner.

Policy Related to Certification across the DoD Security
Enterprise
DoD Directive 5143.01, DoD Instruction 3315.11, and DoD Instruction 3305.13
established the authorities of the USD(I), established policies and procedures with respect
to the DoD Intelligence Human Capital Programs, and established policy, standards, and
procedures for the conduct of DoD security education, training, and professional
development, respectively. DoD Manual 3305.13-M is the implementation guide for
DoD Instruction 3305.13 and further defines the roles and responsibilities of the USD(I),
the Under Secretary of Defense for Personnel and Readiness, the DSS, the DoD Security
Training Council, and Defense Components, relating to security education, training, and
professional development.
DoD Manual 3305.13-M, “Security Accreditation and Certification Manual,” March
14, 2011, provides guidance and procedures for developing and implementing a security
workforce certification program and establishes roles and responsibilities for the
development, implementation, and maintenance of the DoD SPēD Certification Program.
Specific to certification, DoD Manual 3305.13-M specifies that the SPēD Certification
program will:

        Promote a common and shared understanding of both security’s functional tasks
         and the knowledge and skills associated with the competencies required to
         perform those functional tasks (hereafter, referred to as the security essential body
         of knowledge);


12
  Defense Personnel Security Research Center Technical Report 06-01,“Development and Application
of Skill Standards for Security Practitioners,” July 2006



                                               20
      Promote an interoperable DoD security workforce by establishing uniform
       processes for assessing knowledge and skill, and determining whether a member
       of the security workforce has demonstrated mastery of relevant segments of
       security’s essential body of knowledge;
      Facilitate sound professional development and training by ensuring, through a
       formal evaluation process, that such programs provide individuals the opportunity
       to acquire the documented security essential body of knowledge; and,
      Develop a workforce of certified security professionals who will provide the best
       possible guidance and support to DoD managers and leaders responsible for
       protecting DoD’s personnel, information, facilities, operations, and activities.

Security Professional Certification
The professionalization of GS-0080 security professionals through a structured
certification program is in its preliminary stages with the implementation of the first level
of certification, the Security Fundamentals Professional Certification. OUSD(I) efforts to
put forth a standardized certification program rests with the DSS through the SPēD
Certification Program as set forth in DoD Manual 3305.13-M. The COCOMs, surveyed
organizations, and the majority of the Services do not have an existing
professionalization program to assess the proficiencies of their security personnel. The
Air Force, however, is in the vanguard of Services and Commands and stands ready to
implement a professionalization and development program for their security workforce.

Air Force Professionalization Program. The Air Force is in the final phases of fielding
a training and professionalization program for their security professionals. This is a
direct result of the creation of the Information Protection Directorate and is also a
reflection of the Air Force’s decision to apply an enterprise approach to all areas of
security. The Air Force is also integrating risk mitigation into the security paradigm.
The goal is to ensure that Air force personnel understand and apply risk management
principles at all organizational levels to include the tactical level. To that end, the Air
Force is committed to implementing professionalization requirements for their security
professionals that incorporate concepts of risk management.

The Air Force professionalization program consists of four levels integrating the SPēD
Certification Program at each level. Level-I – Security Fundamentals will provide
potential security practitioners with the basic methods and tools to operate in entry level
security positions. The courses will be entry level and as such will be open to all Air
Force employees with no course prerequisites. In addition to completing courses, the
employee will have to obtain concurrence from his or her immediate supervisor noting
that the employee has displayed the appropriate level of professionalism and job
performance to be granted the Security Fundamentals Professional Certification.

Acceptance into the Level-II – Security Asset Protection professionalization courses is
predicated on completion of Level-I professionalization and one year of federal security-
related employment. The applicants will be selected from the Air Force military, civilian,
and contractor security workforce. Level-II candidates will have to be in security related
billets as defined by DoD Manual 3305.13-M in order to apply for the Security Asset
Protection Professional Certification candidacy. In addition, applicants must have
supervisory concurrence that they have displayed the appropriate level of professionalism
and job performance to be granted certification candidate status.




                                             21
Level-III – Security Program Integration incorporates risk management and program
management principles and is intended for military and civilian personnel in or being
groomed for management or senior advisory positions. Applicants must have five years
of federal security-related employment or be currently assigned to a billet requiring the
Security Program Integration Professional Certification. Security Fundamentals
Professional Certification is a prerequisite and the candidate must be in a security related
billet as defined in DoD Manual 3305.13-M to apply for certification candidacy.

Level-IV – Security Enterprise Professional Certification is intended for military and
civilian personnel in or being prepared for senior level management or strategic positions
within the DoD. In addition, applicants must have 10 years of federal security-related
employment or be an incumbent to a Level-IV billet. The applicants must have attained
the Security Program Integration Professional Certification and have their immediate
supervisor’s concurrence that the employee has displayed the appropriate level of
professionalism and job performance to be granted certification candidate status. Finally,
the employee must be sponsored by an owning Major Command Information Protection
office (or equivalent) or a member of the Air Force Security Advisory Council occupying
a GS-15/Computer Network Defense Enclave Security Division level or above. The
applicant must also be vectored by an Air Force developmental team, unless currently
serving in a billet “coded” for “security enterprise certification.”

The Air Force initiated the process for the professional development of security personnel
in 2006. In 2008, the design for professional development of the Air Force security
workforce was put in place. The career path structure was approved in 2009 and position
descriptions were standardized in 2010. The Air Force anticipates full implementation of
security workforce professional development this year. Moreover, the Air Force has
moved toward civilianizing its security workforce. This will likely minimize any issues
related to the appropriate accrediting of military personnel performing security missions.
Air Force standards will require Level-II (Security Asset Protection Professional
Certification) certification for their security practitioners to be considered fully
successful. This will likely differ from other Services and Commands that will only
require Level-I (Security Fundamentals Professional Certification) competencies and
could be problematic as the standardized protection of DoD resources across the security
enterprise should be predicated on consistent performance criteria across the Department.
Office of the Under Secretary of Defense for Intelligence Certification Efforts. As
noted in previous sections, the OUSD(I) has set forth policy to further the education and
professionalization of DoD security personnel. The OSD FCM for security is
undertaking a comprehensive security review to develop, implement, and monitor
workforce planning for the security field. The OSD FCM for security is engaged in
strategic Human Capital Planning and has designated Component FCMs for security to
assist in analyzing the security workforce (to include defining competencies and
conducting gap analyses) and implementing strategy (e.g., setting performance metrics
and staff plans). The Human Capital Management Office is overseeing the movement of
the approximately nine disciplines under the cognizance of the USD(I) to accreditation
and certification requirements. Certification of the security workforce, however, is being
implemented primarily by the DSS, which was tasked to establish the SPēD security
education training and professional development program.




                                             22
Defense Security Service Certification Efforts. The Department has long sought to
establish a certification program for their security professionals. Interviewees have noted
that similar efforts have been ongoing at least eight years. That previous undertakings
have not been successful, explains the concerns of surveyed commands and organizations
that current efforts will not bear fruit.

The 2009 National Intelligence Strategy Enterprise Objective 6, promotes the
development of a “diverse, results focused, and high-performing workforce capable of
providing the technical expertise and exceptional leadership necessary to address…
security challenges.” The SPēD program meets this objective and consists of three
components under the Center for Development of Security Excellence: Security
Professionalization, Training, and Education. The first element is overseen by the
Professionalization Division responsible the SPēD Certification Program, security career
maps, DoD security journals, and security workshops and forums. The Training Division
is the primary agent for security training. The Education Division oversees the security
education program.

The certification program was developed in coordination with the Department of Defense
Security Training Council, which functions as the advisory body on DoD security
training and is chaired by the DSS. The DoD Security Training Council assisted in the
formulation of security skill standards and instituted the development of the SPēD
program.

DSS also used the services of Global Skills X-change, a professional services firm that
specializes in designing workforce education strategies. Global Skills X-change
conducted interviews and facilitated meetings to identify nine security disciplines and to
define how the disciplines were interrelated. Global Skills X-change also compiled
documents that identified the scope of work, knowledge and skills associated with the
nine security disciplines, and drafted action statements for each area. Subject matter
experts reviewed the statements and provided changes, which were subsequently
deconflicted by Global Skills X-change. Similar steps were taken in the identification of
security accountabilities. Global Skills X-change also drafted terminal and enabling
learning objectives statements to define knowledge and capability requirements for each
of the identified knowledge categories for the first and second levels.

The resulting certification structure consists of four levels, which are identified as
Security Fundamentals Professional Certification (Level-I), Security Asset Protection
Professional Certification (Level-II), Security Program Integration Professional
Certification (Level-III) and Security Enterprise Professional Certification (Level-IV). In
addition to the standard core disciplines, the SPeD certification program will include
specialty certifications such as DoD Personnel Security Adjudications, Special Access
Programs, DSS Industrial Security Oversight.

Final certification standards for Security Fundamentals Professional Certification and the
Security Asset Protection Professional Certification have been developed. Based on this
information, security professionals are conferred Security Fundamentals Professional
Certification if they are able to demonstrate an understanding of the central tenets of
security principles and display a wide breadth of knowledge of integral security concepts.
Candidates must display an understanding of the security landscape, asset protection
principles, security countermeasures, and security methods and tools. Mastery of the
security landscape requires a comprehension of security policies and the structure and
policy guidance of associated security programs.



                                            23
Asset protection will require an understanding of the security operational landscape,
information security principles, physical security principles, and program security
principles. A command of security countermeasures concepts will entail an awareness of
information security countermeasures, personnel security countermeasures, physical
security countermeasures, and program security countermeasure principles.

Proficiency in security methods and tools requires an understanding of basic security
forms and security systems. DSS completed beta testing for Security Fundamentals
Professional Certification (Level-I) in December 2010 and opened the operational version
to the DoD security community in February 2011. The Security Asset Protection
professional Certification (Level-II) will be beta tested from August to November 2011
with full operational capability planned for the 2nd quarter of FY 2012.

Certification for Security Asset Protection Professional Certification (Level-II) will be
conferred upon candidates who demonstrate an understanding of advanced security
concepts and theories and can apply foundational security concepts, principles, and
practices. Candidates will be required to master two advanced security principles (1)
security tactics, techniques, and procedures and (2) security as risk management. Each
principle has identified sub-topics some of which are shared concepts. For example,
security practitioners will have to understand the tactics, techniques, and procedures
associated with counterintelligence concepts. They will also have to address
counterintelligence’s role in managing risks to DoD assets. Similar shared concepts
include classification levels and types, classification management, information protection
concepts, and physical security concepts with associated elements. Whether shared or
unique, all concepts fall under the rubric of security principles. The Security Program
Integration Professional Certification blueprint has been developed and development of
the assessment instruments is currently underway. The Security Program Integration
Professional Certification will be beta tested in FY 2012 and planned for release in FY
2013. The Security Enterprise Professional Certification is currently a broad concept and
will be addressed in more depth in FY 2012 and scheduled for release in FY 2014.

Implementation of the SPēD certification program commenced with the signing of the
DoD Manual 3305.13-M on March, 14, 2011. DoD organizations are required to submit
implementation plans one day plus one year after the manual was signed i.e., March 15,
2012. After that, organizations will have five years to implement their respective plans.
DSS is developing a template that DoD organizations can use to create their plans;
however, the specifics of the implementation plans will be unique to the organization and
not consistent across the Department. For example, the certification requirements for a
security position in one organization may differ considerably from requirements in
another organization and yet the positions could be similar in nature. Furthermore, DSS
has not yet fully developed the structure for Security Program Integration (Level-III) and
Security Enterprise (Level-IV) certification. DSS has provided updated guidance
indicating that organizations will only address specific implementation of each level of
certification as they become available for their required implementation plans required by
DoD 3305.13-M.




                                            24
Conclusion
The DoD has worked towards the creation of a certification program for security
personnel for at least 8 years. In addition, there has been previous Congressional interest
in aggregating security training and professionalization across government agencies.
House Resolution 6249 - Interagency National Security Professional Education,
Administration, and Development System Act of 2010, advocated the creation of “a
system to educate, train and develop interagency national security professionals across
the Government.” The proposal still has support from current Congressional members.
If some version of the proposal is adopted, it will likely impact the implementation of a
DoD-centered security training and professionalization program.

While DoD Manual 3305.13-M has been issued establishing the requirement for the
implementation of the SPēD certification program, organizations will not be required to
provide implementation plans for SPēD until March 15, 2012. Moreover, full
implementation is not mandated until 2017. There was concern expressed in interviews
that the extended timeframe could present barriers to full implementation. The uncertain
status of a professionalization and development program across the national security
enterprise creates an even more compelling argument for the timely implementation of
SPēD.

Details of the SPēD certification program are finalized for the first two levels. The third
level is currently in development and the fourth level will be addressed later in FY 2012.
To address concerns regarding the development of implementation plans without specific
information on the levels in development, DSS has revised implementation plan
requirements to address only active certifications. As a result, the implementation plans
due on March 15, 2012 will only address implementation of the Security Fundamentals
Professional Certification. Moreover, the standards for implementation will be
organization-specific and as such will not be consistent.

At issue will be the variances that will result across the Department as individual
organizations apply differing proficiency standards for their respective security
professionals. For example, while one organization may view Level-I certification as the
standard for a fully competent security professional, another might require Level-II
certification. Security missions operating in a joint environment will be particularly
affected by the differing skill sets and proficiencies of security professionals who will be
tasked to coordinate their security efforts.

Recommendation, Management Comments, and Our
Response
B1. We recommend that the Director, Defense Security Service, establish an
accelerated schedule for the development, testing, and implementation of Levels III
and IV of the Security Professional Education and Development program similar to
Levels I and II, to ensure consistency in the application of the program across the
Department.




                                             25
Management Comments
On behalf of the Director, Defense Security Service, the Director of Security, Office of
the Deputy Under Secretary of Defense for Intelligence and Security, non-concurred,
stating that SPeD is being developed over a four-year period, with an additional three
specialty areas also being integrated into the SPeD Certification Program during this
four-year period to address critical security community requirements. The Director of
Security expressed that caution must be exercised in accelerating the roll out of the SPeD
Certification Program beyond the current projected schedule for the following reasons:
Lessons have been learned from the development of the first two levels that will benefit
the final two levels ensuring smoother development and implementation and that DoD
Components must be capable of implementing the certification program. Current
implementation efforts demonstrated that the components need time to address
component unique implementation issues. Development of the SPeD Certification
Program requires beta testing of each level with target populations of security
professionals. With prerequisite certification requirements, DSS has to roll out the
program over time to ensure that beta test participants possess the necessary prerequisites
and that the beta test audience is large enough to produce valid statistical data.
Additionally, training and education courses are being updated and/or developed to
address the skills and competencies required for each certification.

Our Response
Although the Defense Security Service disagreed with the recommendation,
implementation actions taken to date to ensure that SPeD is being developed in a
consistent, thoughtful, and measured manner; along with a detailed implementation
schedule, satisfies the intent of the recommendation.

B2. We recommend that the Director, Defense Security Service, examine the
current implementation strategy and develop a standardized Security Professional
Education and Development certification program implementation plan for use by
all organizations and commands. The implementation plan should include a means
to track those with certifications and the level of certification.

Management Comments
On behalf of the Director, Defense Security Service, the Director of Security, Office of
the Deputy Under Secretary of Defense for Intelligence and Security, concurred. The
Defense Security Service is developing an implementation plan template. On
July 18, 2011 an interim implementation plan template was forwarded to DoD
Components. The interim plan addresses only the implementation of the Security
Fundamentals Professional Certification through FY 2012. The standardized template
being developed will be designed to address the addition of certifications as they become
available rather than requiring Components to address future certifications before they
are operational. The standardized template will be distributed by September 2012.
Additionally, both the Security Training, Education and Professionalization Portal and
the Defense Manpower Data Center will be used to track certifications.

Our Response
The comments of the Director of Security, Office of the Deputy Under Secretary of
Defense for Intelligence and Security, are responsive and meet the intent of the
recommendation. We do request that management provide a copy of the standardized
template upon completion in September 2012.


                                            26
APPENDIX A. Scope and Methodology
This assessment was conducted in accordance with Quality Standards for Inspections and
Evaluations issued by the Council of the Inspectors General on Integrity and Efficiency.
Those standards require that we plan and perform the assessment to obtain sufficient
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our assessment objectives. The evidence obtained provides a reasonable basis for our
findings and conclusions based on our assessment objectives. To accomplish our
assessment, we:

      reviewed relevant policies, regulations, and related studies;
      conducted a survey of 45 Defense Component security managers; and
      interviewed those managers, along with additional Department officials
       responsible for security training and related policy development and
       implementation.

Because of the size and complexity of addressing security within the Department of
Defense, we are performing this assessment in phases. The previous phase addressed
tracking and measuring security costs. This phase focused on training, certification, and
professionalization; and the remaining phases will focus on classification and grading,
and security policies.




                                            27
APPENDIX B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoDIG) have issued three reports that have
addressed security specific to the DoD and national security enterprise. Unrestricted
GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD
IG reports can be accessed at http://www.dodigmil/Ir/reports.


GAO
GAO Report No. GAO-11-108, “An Overview of Professional Development Activities
Intended to Improve Interagency Collaboration,” November 2010

GAO Report No. GAO-09-0904SP, “Key Issues for Congressional Oversight of National
Security Strategies, Organizations, Workforce, and Information Sharing,”
September 2009


DoD IG
DoD IG Report No. 10-INTEL-09, “Assessment of Security Within the Department of
Defense – Tracking and Measuring Security Costs,” August 6, 2010




                                         28
Director of Security, Office of the Deputy Under Secretary
of Defense for Intelligence and Security Comments




                            OFFICE OF THE UNDER SECRETARY OF DEFENSE




   •
                                             !5000 DEFENSE PENTAGON
                                            WASHINGTON, DC 20301·!5000

                                                                                               SEP 1 4 201\

    INTEU.JGENCE


         MEMORANDUM FOR fNSPECTOR GENERAL OF THE DEPARTMENT OF DEFENSE

         SUBJECT: Comments on DoD IG Draft Report: Assessment of Security Within the DoD-
                  Training, Certification, and Professionalization Project No. D20 I 0-DfNTO 1-
                  0066.001

                 The Defense Security Service (DSS) and the Human Capital Management Office have
         reviewed the subject draft. Both Security Directorate and DSS have comments on the content of
         the draft. More specifically, regarding your recommendations:

                 Al. We recommend that the Director, DSS develop an awareness plan that will inform
         Services and Components of the implementation status of the Security Professional Education
         Development Program (SPeD) and educate security managers about the benefits of the program-
         identifying program mi lestones and addressing concerns regarding program implementation.
                   Concur. DSS has been actively marketing the SPeD Certification Program since its
         inception and continues to promote the program and provide status updates on the program to the
         DoD Community. The following provides additional details regard ing SPeD communications:
                   •   A SPeD marketing plan was initially developed and shared with the DoD Security
                       Training Council membership in August 20 10. The plan outlined the marketing plan
                       for the Security fundamenta ls Professional Certification (SFPC). Since then, a new
                       plan has been developed (completed July 21, 20 II ). The plans utilize a multi-prong
                       approach, leveraging a variety of outreach too ls.
                   •   A SPeD webpage was deve loped early in the program and has been updated on a
                       continual basis. T he webpage includes links to SPeD Certifications, About SPeD,
                       SPeD FAQs, SPeD Resources, SPeD Diagnostic Tools, SPeD Test Sites, SPeD
                       Contacts, and SPeD News (last updated the week ending August 19, 2011).
                   •   DSS has provided and conti nues to provide SPeD briefings to DoD Components.
                       Briefings are·available upon request. Additionally, DSS has sought out DoD
                       Components in order to educate them on SPeD (last Component meeting was with
                       Army the week ending August 19, 20 II ).
                   •   DSS provides presentations at various security conferences to include the DoD
                       Worldwide Security Conferences and the DoD European Security Conference.
                       Upcoming events include the Navy Security Conference in September 20 II , the
                       DARPA Conference in October 20 II , and the SSO Conference in Novem ber 20 II.
                   •   DSS sponsors a Center for Development of Security Excellence (CDSE) booth that
                       also provides SPeD promotional and information materials at major security
                       conferences and events (supported events over the past year included t\CMS, ASIS,
                       OPSEC, IMPACT, DARPA, SSO, etc.).
                   •   DSS uuilizes social media including Twitter, Facebook and YouTube to promote the ·
                       SPeD Certification Program (established March 2011).
                   •   DSS produces quarterly SPeD news letters that are pushed to the community and
                       made avai lable on the SPeD website (latest newsletter cover was released the 3'd Qtr
                       or FY1 1).
                   •   DSS provides a weekly SPeD update to DoD Components.




                                                                        29
Director of Security, Office of the Deputy Under Secretary
of Defense for Intelligence and Security Comments




             •   SPeD updates are provided at each quarterly DoD Security Training Council (DSTC)
                 meeting (last meeting held on June 6, 20 II , next meeting scheduled for September
                 29, 20 II).
             •   DSS has provided SPeD promotional tools to DoD Component SPeD point of
                 contacts (POC).
             •   The SPeD Certification Program was the subject of a Pentagon Channel story
                 (September 20 I 0).
             •   A SPeD mailbox has been established and maintained.
             •   DSS hosts monthly SPeD cenification conference ca.lls with Component SPeD POCs
                 to address program questions and implementation issues (held the 3'a Thursday of
                 each month with a morning and afternoon session in order to accommodate European
                 and Pacific time zones; the last series of ca lls were held on August 18, 2011 ).
             •   A SPeD forum was held on September 30, 2010, and available via web streaming.
                 The day-long event provided SPeD Cenification Program overview and a Q&A
                 session. The forum was supported by the Under Secretary of Defense for
                 Intelligence/Deputy Under Secretary of Defense (Intelligence and Security)
                 (USD(I)/DUSD(I&S)).


              DSS will continue with the current outreach activities listed above. DSS is also working
      closely with the Defense lntelligence Agency to address Combatant Command (COCOM)
      concerns. DSS wi ll provide SPeD Cenification Program briefings and testing at the upcoming
      SSO Conference. Additional ly, DSS will conti nue proactive outreach effons with DoD
      Components and Activities.

              A2. We recommend that the D USD(l&S) develop a mechanism to provide consistent
      oversight and monitoring of security funds that are allocated to suppon the implementation and
      sustaimnent of the SPeD Certification Program and ensure funds are not repurposed for non-
      security training efforts

             Partia lly concu r. Th is is a noble goal, however attempts to do this have been resisted by
      some components citing abrogation of authorities. OUSD(l) w ill explore with the Office of the
      Secretary of Defense for Personnel and Read iness and the DoD Comptroller options for
      implementation and forward a plan to D USD(I&S) by January I, 20 12.

              Bl. Establish an accelerated schedule for the development, testing, and implementation
      of levels Ill and IV of SPeD, similar to levels J and IJ, to ensure consistency in the application of
      the program across the Department.
               Non -concur. SPeD is being developed over a four-year period. T hree specialty areas are
      also being integrated into the SPeD Certification Program during this four-year period to address
      critical security community requirements.




                                                                     30
Director of Security, Office of the Deputy Under Secretary
of Defense for Intelligence and Security Comments




      The current deve lopment schedule for SPeD Certifications are:



                 Certification                        Status               Operationa l Date

      Security Fundamentals             Operational                     February 20 I I
      Professional Certification

      Security Asset Protection
      Professional Certification
                                      I Beta Test (Aug-Nov II)          February 2012


      Security Program Integration      Development                     February 2013
      Professional Certi ficatio n

      Security Enterprise               Preliminary Development         February 2014
      Professional Certification

      DoD Personnel Security            Program Review and              August 2010
      Adjudicator Certification         Certification Assessment
                                        Revision
                                                                        Revised Assessment
                                                                        September 20 I I

      Special Program Security          Program Review and              Revised Assessment -
      Certification                     Certification Assessment        Journeyman level -
                                        Revision                        November 201 1



                                                                        Master level - TBD

      DSS Industrial Security           Preli minary Development        September 20 12
      Professional Certification



      Caution must be exercised in accelerating the roll out of the SPeD Cert ification Program beyond
      the current projected schedule for the following reasons:
             •     DoD Components must be capable of implementing the certification program.
                   Current implementation of the Security Fundamentals Professional Certification has
                   demonstrated that the components need time to address component unique
                   implementation issues.
             •     Development of the SPeD Certification Program requires beta testing of each level
                   with target populations of security professionals. With prerequisite certification




                                                                   31
Director of Security, Office of the Deputy Under Secretary
of Defense for Intelligence and Security Comments




                 requirements, DSS has to roll out the program over time to ensure that beta test
                 participants possess the necessary prerequisites and that the beta test audience is large
                 enough to produce valid statistical data.
             •   T raining and education courses are being updated and/or developed to address the
                 skills and competencies required for each certification.
             •   Lessons have been leamed from the development of SFPC and SAP PC that will
                 benefit SPIPC and SEPC to ensuring smoother development and implementation.


              82. Examine the cunent implementation strategy and develop a standardized SPeD
      Certification Program imp lementation plan for use by all o rganizations and commands. The
      imp lementation plan should inc lude a means to track those with certifications and the level of
      certification.

              Concur. DSS has been pu rsuing th is action si nce the inception of the current SPeD
      development effort. Both the Security Training, Educatio n and Professionalizatio n Portal
      (STEPP) and the Defense Manpower Data Center (DMDC) will be used to track certifications.
      STEPP is currently serving as the SPeD certification records data system. DSS is currently
      working w ith DMDC to establish the SPeD records data transmission capability to transfer data
      to Official Personnel Records. Fu ndi ng documents for DMDC support were executed in August
      201 I.

              DSS is developing an implementation plan template. Development of the template has
      been affected by the delay in approval of3305.13-M. An interim implementation plan template
      was fo rwarded to DoD Components on Ju ly I 8, 20 I I. The interim plan addresses only the
      implementation of the Security Fundamentals Professional Ce rtification through FYI2. The
      standardized template being developed will be designed to address the addition of certifications
      as they become available rather than requi ring Components to address future certifications before
      they are operationaL The standardized template will be distributed by September 2012.

              Security Directorate looks forward to wo rking with the Office of the Inspector General to
      reso lve these comments and publish the report. The points of contact are Stephen Lewis, (703)
      604-2768 or Stephen.Lewis@osd.mil and Denise Humphrey, (410) 865-3470 or
      Denise.Humphrey@dss.mi l.




                                                                    32
